App. 1
20-648-bk
Channer v. Penn. Higher Educ. Assistance Agency
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary order filed
on or after January 1, 2007, is permitted and is
governed by Federal Rule of Appellate Procedure 32.1 and this Court’s Local Rule 32.1.1. When
citing a summary order in a document filed with
this Court, a party must cite either the Federal
Appendix or an electronic database (with the notation “summary order”). A party citing a summary order must serve a copy of it on any party
not represented by counsel.
At a stated term of the United States Court
of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
17th day of December, two thousand twenty.
PRESENT: JOSÉ A. CABRANES,
SUSAN L. CARNEY,
MICHAEL H. PARK,
Circuit Judges.

App. 2
In re Lorna Y Channer,
Debtor.
LORNA Y. CHANNER,
Debtor-Appellant,
v.
PENNSYLVANIA HIGHER
EDUCATION ASSISTANCE AGENCY,

20-648-bk

Appellee,
UNITED STATES,
Trustee.
FOR DEBTOR-APPELLANT:
AUSTIN C. SMITH, New York, NY.
FOR APPELLEE:

IRVE J. GOLDMAN, Bridgeport, CT.

Appeal from a December 12, 2019 judgment of the
United States District Court for the District of Connecticut (Kari A. Dooley, Judge), affirming order of the
United States Bankruptcy Court for the District of
Connecticut (James J. Tancredi, Bankruptcy Judge).
UPON DUE CONSIDERATION WHEREOF,
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the District Court be
and hereby is AFFIRMED.
Debtor-Appellant Loma Y. Channer (“Channer”)
appeals the judgment of the United States District
Court for the District of Connecticut entered on December 12, 2019, affirming the denial by the United

App. 3
States Bankruptcy Court for the District of Connecticut of Channer’s motion to reopen her Chapter 7 bankruptcy case pursuant to 11 U.S.C. § 350(b), which had
been closed twice and already reopened once on Channer’s motion.1 We assume the parties’ familiarity with
the facts and the issues on appeal.
In 2007, Channer signed a Federal Consolidation
Loan Application and Promissory Note to consolidate
two federal student loans under the Federal Family
Education Loan (“FFEL”) Program. The Pennsylvania
Higher Education Assistance Agency d/b/a American
Educational Services (“PHEAA”) was the guarantor.2
In 2010, Channer sought relief under Chapter 7 of the
United States Bankruptcy Code, listing her student
loans in her bankruptcy petition.3 On November 3,
2010, the Bankruptcy Court issued an order of discharge, and the case was administratively closed in
August 2013.4
1

In re Channer, No. 19 Civ. 319, 2019 WL 6726397 (D. Conn.
Dec. 11, 2019), reconsideration denied, 2020 WL 607188 (D. Conn,
Feb. 7, 2020).
2
At oral argument on appeal, counsel for Channer appeared
to contest this fact. The District Court noted, “[Channer] now appears to dispute whether PHEAA guaranteed the student loans”
but also noted “as [Channer] acknowledges, she identified
PHEAA as the creditor for her “educational student loan.” Channer, 2019 WL 6726397, at *1 n.3.
3
On appeal, the parties agree that the debt at issue is identified by terminal digits -4788, and appears on Schedule E of the
bankruptcy petition. Channer had mistakenly argued below that
the debt was listed on Schedule F of the bankruptcy petition.
4
In that discharge order, the Bankruptcy Court explained
that there are “‘[s]ome . . . common types of debts which are not

App. 4
Some years later, in January 2019, Channer filed
a motion to reopen, in order to pursue (1) a motion for
relief from judgment or order under Federal Rule of
Bankruptcy Procedure 9024 and (2) an amended motion to show cause, to which PHEAA objected.5 After a
hearing, the Bankruptcy Court issued a decision denying Channer’s motion to reopen,6 which was affirmed
by the District Court.7
A bankruptcy court may reopen a case “to administer assets, to accord relief to the debtor, or for other
cause.”8 We have jurisdiction under 28 U.S.C. § 158(d)(1)
to review final decisions of the district court that, in
turn, review an order of the bankruptcy court.9 As the
district court itself is operating as an appellate court,
we engage in plenary, or de novo, review of the district

discharged in a chapter 7 bankruptcy case,’ which include ‘[d]ebts
for most student loans.’” Channer, 2019 WL 6726397, at *1 (quoting and citing Discharge Order at 2, ¶ d, In re Channer, No.
1021232 (Bankr. D. Conn. Nov. 3, 2010), ECF No. 64).
5
As the Bankruptcy Court noted, “[u]ltimately, [Channer]
seeks for the Court to hold [PHEAA] in contempt due to its efforts
to collect what [Channer] claims are discharged debts.” In re
Channer, No. 1021232, 2019 WL 856247, *1 (Bankr. D. Conn. Feb.
20, 2019).
6
Id. After rejecting the grounds upon which Channer sought
to pursue contempt sanctions, the Bankruptcy Court thus concluded that there was no relief that could be accorded to her and
denied the motion to reopen. Id. at *2.
7
Channer, 2019 WL 6726397, at *1.
8
11 U.S.C. § 350(6).
9
See 28 U.S.C. § 158(d)(1).

App. 5
court’s decision.10 We thus apply the same standard of
review that the district court employed in its review of
the bankruptcy court’s order, reviewing “the bankruptcy court’s findings of fact for clear error and its legal determinations de novo.”11 And “[a] bankruptcy
judge’s decision to grant or deny a motion to reopen . . .
shall not be disturbed absent an abuse of discretion.”12
Channer sought to reopen her case for the purpose
of seeking the court to hold PHEAA in contempt for
violating the discharge injunction, and she raised two
grounds for reopening her case before the District
Court.13 We consider each argument in turn.

10

In re Anderson, 884 F.3d 382, 387 (2d Cir. 2018) (“[W]e engage in plenary, or de novo, review of the district court decision”);
see also In re Manville Forest Prod’s Corp., 896 F.2d 1384, 1388
(2d Cir. 1990).
11
Anderson, 884 F.3d at 387 (citing In re U.S. Lines, Inc., 197
F.3d 631, 640-41 (2d Cir. 1999)); see also id. at 388 (“In sum, we
engage in clear error review of the bankruptcy court’s findings of
fact and de novo review of its legal conclusions[.]”). In addition,
we are “free to affirm an appealed decision on any ground which
finds support in the record, regardless of the ground upon which
the trial court relied.” McCall v. Pataki, 232 F.3d 321, 323 (2d Cir.
2000) (internal quotation marks omitted).
12
In re Smith, 645 F.3d 186, 189 (2d Cir. 2011). A court “has
abused its discretion if it based its ruling on an erroneous view of
the law or on a clearly erroneous assessment of the evidence or
rendered a decision that cannot be located within the range of
permissible decisions.” In re Sims, 534 F.3d 117, 132 (2d Cir.
2008) (internal alterations, quotations marks, and citations omitted).
13
Insofar as Channer raises other arguments on this appeal
that she did not raise in bankruptcy proceedings, we decline to
consider them here. See In re Johns–Manville Corp., 759 F.3d 206,

App. 6
Channer first argues that reopening was necessary on the basis that PHEAA is not a governmental
unit and thus the loans it guarantees are dischargeable in bankruptcy. We disagree. “Student loans are presumptively nondischargeable in bankruptcy.”14 The
discharge provision of the United States Bankruptcy
Code discharges all debts “[e]xcept as provided in
section 523.15 Under Section 523(a)(8), student loans
“made, insured, or guaranteed by a governmental unit,
or made under any program funded in whole or in part
by a governmental unit or nonprofit institution” are
presumptively non-dischargeable in bankruptcy unless the debtor establishes “undue hardship.”16 In turn,
a “governmental unit” is defined as, inter cilia, the
“United States; [or a] State; Commonwealth; District;
Territory; municipality; foreign state; department,
219 (2d Cir. 2014) (failure to raise argument in the bankruptcy
court waived the argument even if raised in the district court);
see, e.g., Osborne v. Tulis, 594 F. App’x 39, 41 (2d Cir. 2015) (nonpublished summary order) (citing Johns Manville Corp. and declining to consider arguments not raised before the bankruptcy
court).
14
Easterling v. Collecto, Inc., 692 F.3d 229, 231 (2d Cir. 2012)
(citing 11 U.S.C. § 523(a)(8)); see also United Student Aid Funds,
Inc. v. Espinosa, 559 U.S. 260, 277 & n. 13 (2010) (“Section
523(a)(8) renders student loan debt presumptively nondischargeable ‘unless’ a determination of undue hardship is made”); Tennessee Student Assistance Corp. v. Hood, 541 U.S. 440, 450 (2004)
(noting that “[s]ection 523(a)(8) is self-executing,” such that
“[u]nless the debtor affirmatively secures a hardship determination, the discharge order will not include a student loan debt”).
15
11 U.S.C. § 727(6).
16
Id. § 523(a)(8)(A)(i); accord Easterling, 692 F.3d at 231-32;
In re O’Brien, 419 F.3d 104, 105 (2d Cir. 2005).

App. 7
agency, or instrumentality of the United States . . . , a
State, a Commonwealth, a District, a Territory, a municipality, or a foreign state; or other foreign or domestic government.”17
We have explained that Section 523(a)(8) requires
only that the loan in question was “made under any
program funded in whole or in part by” a governmental
unit.18 The record here shows that Channer’s loans
were obtained through the FFEL Program, a federallyfunded program under which the United States Department of Education (“DOE”) serves as the reinsurer
of student loans guaranteed by participating agencies.19 The record further shows that PHEAA is the
guarantor of Channer’s loan. And PHEAA plainly
qualifies as a governmental unit within the meaning
of Section 523(a) because it is a government instrumentality of the Commonwealth of Pennsylvania. Indeed, PHEAA was created by statute as “a body
corporate and politic constituting a public corporation and government instrumentality,” and has been
repeatedly recognized as such by the Pennsylvania
17

11 U.S.C. § 101(27); see also id. § 101(40) (“The term ‘municipality’ means political subdivision or public agency or instrumentality of a State.”).
18
O’Brien, 419 F.3d at 106.
19
See, e.g., Calise Beauty Sch., Inc. v. Kiley, 941 F. Supp. 425,
427 (S.D.N.Y. 1996) (discussing the administration of the FFEL
programs, pursuant to which “students attending eligible postsecondary schools may borrow money for tuition and expenses from
participating lenders,” which are “insured by participating ‘guaranty agencies’ which, in turn, are reinsured by the United States
Department of Education”).

App. 8
courts.20 On appeal Channer offers no persuasive
justification as to why we should disregard these decisions rendered by Pennsylvania’s highest court.21 Accordingly, we conclude, as did the District Court, that
the Bankruptcy Court did not abuse its discretion in
rejecting Channer’s argument that the PHEAA was
20

24 Pa. Stat. 5 5101. See Pennsylvania Higher Educ. Assistance Agency v. Xed, 72 Pa. Cmwlth. 412, 412 (1983) (“PHEAA is
a statutorily created instrumentality that guarantees educational
loans made to persons pursuing higher education.”) (citing Act of
August 7, 1963, P.L. 549, as amended, 24 P.S. 55 5101 et seq.);
Greenfield v. Pennylvania Ins. Guar. Ass’n, 24 Pa. Cmwlth. 127,
130-31 (1976) (reaffirming prior holding that PHEAA “was an
agency of the Commonwealth” on the basis of certain indicia: that
PHEAA was by statute “denominated a government instrumentality; that the members of the board of directors are appointed
by the Governor, the President Pro Tempore of the Senate or
Speaker of the House; that on dissolution its assets become the
property of the State; and that at least part of its operating expenses is provided by a yearly appropriation by the General Assembly . . . ”); Richmond v. Pennsylvania Higher Ed Assistance
Agency, 6 Pa. Cmwlth. 612, 614, (1972) (holding that PHEAA is
an agency of the Commonwealth government); see also U.S. ex rel
Oberg v. Pennsylvania Higher Educ. Assistance Agency, 804 F.3d
646, 650 (4th Cir. 2015) (explaining that PHEAA was established
by statute by the Commonwealth of Pennsylvania in 1963 “to improve access to higher education by originating, financing, and
guaranteeing student loans.” (internal quotation omitted)).
21
Channer may have even conceded the point that PHEAA
is a governmental unit on appeal. Indeed, Channer’s own brief
quotes a Fourth Circuit decision for the proposition that “[f ]or
purposes of federal law, PHEAA is a political subdivision, not an
arm or alter ego of Pennsylvania.” Channer Br. at 20 (quoting
U.S. ex rel. Oberg, 804 F.3d at 676-77). As we have noted here, the
definition of a governmental unit for the purposes of Section
523(a)(8) includes a “municipality,” 11 U.S.C. § 101(27), which in
turn is defined as a “political subdivision or public agency or instrumentality of a State,” id. § 101(40).

App. 9
not a governmental unit within the meaning of Section
523(a)(8) and in denying Channer’s motion to reopen.22
Channer next argued that her student loan debt
was discharged because she had listed it in her bankruptcy petition and PHEAA did not timely challenge
its dischargeability. We again disagree. A debt is nondischargeable if the “debt [is] of a kind specified in paragraph (2), (4) or (6) of subsection (a) of this section
[523]”; if the “creditor to whom such debt is owed” commences an action; and “after notice and a hearing, the
court determines such debt to be excepted from discharge.”23 But, as noted above, Channer’s student loan
– the debt at issue in this case – falls under paragraph
(8) of Section 523(a). Since the debt in question here is
plainly not of the kind set forth in paragraphs (2), (4)
or (6) of Section 523(a), we conclude that the Bankruptcy Court did not abuse its discretion in denying
Channer’s motion to reopen after concluding that

22

Channer’s student loan debt was presumptively non-dischargeable unless she established undue hardship See Easterling
692 F.3d at 232 (“To seek an undue hardship discharge of student
loans, a debtor must ‘commence an adversary proceeding by serving a summons and complaint on affected creditors.’ ” (quoting
U.S. Aid Funds, Inc., 559 U.S. at 269). But Channer did not institute such an adversarial proceeding. Nor did Channer claim undue hardship. See Channer, 2019 WL 856247, at *1 (“Notably, the
Debtor has not claimed that the student loan debts impose an undue hardship on her.”).
23
11 U.S.C. § 523(c)(1).

App. 10
Channer’s student loan debt was not discharged
simply due to its inclusion in the bankruptcy petition.24
CONCLUSION
For the reasons set forth herein, we AFFIRM the
December 12, 2019 judgment of the District Court.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

24

Channer, 2019 WL 856247, at *1 (“Merely listing student
loan debts on a petition does not discharge them, a fact noted on
the Debtor’s discharge order. The proper avenue for discharging
student loan obligations is to commence an adversary proceeding
under Fed. R. Bankr. P. 7001.”) (internal citations omitted).

App. 11
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
IN RE:
LORNA Y. CHANNER,
Debtor

)
BANKR NO. 10-21232 (JJT)
)
Chapter 7
)

LORNA Y. CHANNER
Debtor-Appellant,

) CIVIL NO. 3:19-CV-00319
) (KAD)
)
v.
PENNSYLVANIA HIGHER )
EDUCATION ASSISTANCE )
)
AGENCY
) DECEMBER 11, 2019
Appellee.
MEMORANDUM OF DECISION
Kari A. Dooley, United States District Judge
Appellant Lorna Channer (the “Appellant”) appeals
from the decision of the United States Bankruptcy
Court for the District of Connecticut (“Bankruptcy
Court”) denying her motion to reopen her Chapter 7
bankruptcy case pursuant to 11 U.S.C. § 350(b).1 For
the reasons set forth below, the Court AFFIRMS the
Bankruptcy Court’s decision.

1

Section 350(b) states: “A case may be reopened in the court
in which such case was closed to administer assets, to accord relief
to the debtor, or for other cause.”

App. 12
Background2
On April 16, 2010, the Appellant sought relief under Chapter 7 of the United States Bankruptcy Code
(the “Bankruptcy Code”). On Schedule F of her bankruptcy petition, the Appellant listed as unsecured and
non-priority her student loans, which were obtained
through the Federal Family Education Loan Program
and guaranteed by the Pennsylvania Higher Education Assistance Agency, d/b/a American Education
Services (“PHEAA”).3 On November 3, 2010, the Bankruptcy Court issued an order of discharge. In that order, the Bankruptcy Court explained that there are
“[s]ome . . . common types of debts which are not discharged in a chapter 7 bankruptcy case,” which include
“[d]ebts for most student loans.” In re Channer, No. 1021232 (JJT), ECF No. 64 at p. 2, ¶ d. (Bankr. D. Conn.
Nov. 3, 2010). The bankruptcy case was administratively closed on August 29, 2013.
In or about 2017, PHEAA began garnishing the
Appellant’s wages. In response, the Appellant filed various motions with the Bankruptcy Court in which she
contended that PHEAA should be held in contempt for
attempting to collect a debt that had been discharged
2

Unless otherwise indicated, the following facts are undisputed.
3
The Appellant now appears to dispute whether PHEAA
guaranteed the student loans. But, as the Appellant acknowledges, she identified PHEAA as the creditor for her “educational
student loan” in her Schedule F. Ch. 7 Pet. at 26, In re Channer,
No. 10-21232 (JJT) (Bankr D Conn. filed Apr. 16, 2010), ECF No.
2; see also Mot. Reopen at ¶ 15, In re Channer, No. 10-21232 (JJT)
(Bankr. D. Conn. filed Jan. 2, 2019), ECF No. 98.

App. 13
by order of the court. As relevant to the instant appeal,
on September 17, 2018, the Appellant filed a motion for
order to show cause, which was denied on November
15, 2018 without prejudice to reconsideration if the
bankruptcy case was reopened. On January 2, 2019,
the Appellant filed a motion to reopen the bankruptcy
case and for reconsideration of her motion for order to
show cause. In that dual-motion, the Appellant argued,
among other things, that her student loan debt had
been discharged and that PHEAA was not a governmental entity entitled to protection from such discharge. On January 17, 2019, the Appellant filed an
amended motion for order to show cause, in which she
raised these same arguments. On January 31, 2019,
PHEAA filed an objection to the Appellant’s ending
motions. PHEAA argued that the motions should be
denied because the student loan debt was nondischargable under 11 U.S.C. § 523(a)(8) and the Appellant had failed to exhaust her administrative remedies
with respect to the garnishment of her wages. PHEAA
further asserted that because the debt was nondischargable, it followed that the Appellant could not establish by clear and convincing evidence that PHEAA
acted in contempt of the court’s discharge order.
On February 20, 2019, after a hearing, the Bankruptcy Court issued a decision denying the $ Appellant’s motion to reopen. In re Channer, No. 10-21232
(JJT), 2019 WL 856247, at *1 (Bankr. D. Conn. Feb. 20,
2019). The Bankruptcy Court determined that the Appellant’s student loan debt was not subject to discharge
simply because it was listed on her Schedule F, as the

App. 14
Appellant contended. Id. Rather, the proper avenue for
seeking discharge of this debt was to commence an
adversary proceeding pursuant to Rule 7001 of the
Federal Rules of Bankruptcy Procedure, which the Appellant had not done. Id. The Bankruptcy Court further rejected the Appellant’s contention that PHEAA
was not a governmental entity under Section 523(a)(8)
because controlling Pennsylvania law made clear that
PHEAA was a statutorily-created state agency. Id. Because the Appellant’s reasons for reopening her bankruptcy case and seeking contempt sanctions rested on
a faulty premise, the Bankruptcy Court found that
there was no relief that could be accorded to her and
denied the motion to reopen. Id. at *2. On March 4,
2019, the Appellant timely filed the instant appeal.
Standard of Review
Federal district courts have jurisdiction to hear
appeals from final judgments, orders, and decrees of
bankruptcy judges. 28 U.S.C. § 158(a). Courts “review
the bankruptcy court’s findings of fact for clear error
and its legal determinations de novo.” In re Anderson,
884 F.3d 382, 387 (2d Cir. 2018). “A bankruptcy judge’s
decision to grant or deny a motion to reopen pursuant
to 11 U.S.C. § 350(b) shall not be disturbed absent an
abuse of discretion.” In re Smith, 645 F.3d 186, 189 (2d
Cir. 2011). “The reason is that such decisions invoke
the exercise of a bankruptcy court’s equitable powers,
which is dependent upon the facts and circumstances
of each case.” In re Chalasani, 92 F.3d 1300, 1307 (2d
Cir. 1996). An abuse of discretion “occurs when (1) the

App. 15
court’s decision rests on an error of law (such as application of the wrong legal principle) or clearly erroneous
factual finding, or (2) its decision—though not necessarily the product of a legal error or a clearly erroneous
factual finding—cannot be located within the range of
permissible decisions.” McDaniel v. Cty. of Schenectady,
595 F.3d 411, 416 (2d Cir. 2010) (alterations omitted;
citations omitted; internal quotation marks omitted)
(quoting Kickham Hanley P.C. v. Kodak Ret. Income
Plan, 558 F.3d 204, 209 (2d Cir. 2009)).
Discussion
On appeal, the Appellant contends that the
Bankruptcy Court erred when it denied her motion
to reopen because there are issues of fact concerning
whether PHEAA qualifies as a governmental unit
under Section 523(a)(8) and, therefore, whether her
student loans were presumptively nondischargeable.
PHEAA responds that the Bankruptcy Court properly
concluded that the student loans had not been discharged and, therefore, there was no cause to reopen
the bankruptcy case. Upon a review of the record, the
Court concludes that the Bankruptcy Court acted well
within its discretion when denying the Appellant’s motion to reopen.
The discharge provision of the United States
Bankruptcy Code discharges all debts “[e]xcept as provided in section 523.” 11 U.S.C. § 727(b). Pursuant to
Section 523(a)(8), student loans “made, insured, or
guaranteed by a governmental unit, or made under

App. 16
any program funded in whole or in part by a governmental unit or nonprofit institution” are presumptively
nondischargeable in bankruptcy unless the debtor establishes “undue hardship.” 11 U.S.C. § 523(a)(8)(A)(i);
accord Easterling v. Collecto, Inc., 692 F.3d 229, 231–32
(2d Cir. 2012). The Bankruptcy Code defines a “governmental unit,” in relevant part, as a “department, agency,
or instrumentality of . . . a Commonwealth. . . .” 11
U.S.C. § 101(27). Here, PHEAA plainly qualifies as a
governmental unit. PHEAA is a statutorily-created
“governmental instrumentality” tasked by the Commonwealth of Pennsylvania with improving higher
educational opportunities, in part, by guaranteeing
student loans.4 24 Pa. Stat. §§ 5101–5102; Penn. Higher
Educ. Assistance Agency v. Xed, 456 A.2d 725, 725 (Pa.
1983) (“PHEAA is a statutorily created instrumentality that guarantees educational loans made to persons
pursuing higher education.”).
Citing to United States ex rel. Oberg v. Pennsylvania Higher Education Assistance Agency, 804 F.3d 646
(4th Cir. 2015) (“Oberg”), the Appellant argues that
there are issues of fact concerning whether PHEAA
can qualify as a government entity “because [PHEAA]
is now a self-sufficient student loan financial-services
company.” (Appellant Reply Br. at 5, ECF No. 15.)
And, therefore, the Bankruptcy Court erred by not
4

The originating statute for the PHEAA refers to it as both
an instrumentality and an agency. 24 Pa. Stat. § 5101. Whether
PHEAA is better characterized as an agency or instrumentality
of Pennsylvania is immaterial, as both entities qualify as governmental units under the Bankruptcy Code. 11 U.S.C. § 101(27).

App. 17
permitting discovery into this issue. Oberg is inapposite. There, the Fourth Circuit Court of Appeals had to
determine “whether PHEAA qualifies as an ‘arm of the
state’ or ‘alter ego’ of Pennsylvania such that it cannot
be sued under the [False Claims Act].”5 Oberg, 804 F.3d
at 650. To answer that question, the court considered,
among other things, whether primary legal and financial liability for a judgment against PHEAA would fall
on Pennsylvania. Id. at 650–51. Here, Pennsylvania’s
legal or financial liability vis-à-vis PHEAA is irrelevant. The sole issue is whether PHEAA falls within the
definition of “governmental unit” for purposes of Section 523(a)(8), which it clearly does. See 11 U.S.C.
§ 101(27); 24 Pa. Stat. § 5101. No amount of discovery
into PHEAA’s financial independence or Pennsylvania’s vicarious liability for PHEAA’s conduct could
change this conclusion.
Because PHEAA is a governmental unit, the Appellant’s student loan debt was presumptively nondischargeable unless she established undue hardship.
11 U.S.C. § 523(a)(8)(A)(i). “To seek an undue hardship discharge of student loans, a debtor must ‘commence an adversary proceeding by serving a summons
and complaint on affected creditors.’ ” Easterling, 692
F.3d at 232 (quoting U.S. Aid Funds, Inc. v. Espinosa,
559 U.S. 260, 269 (2010)). It is undisputed that the
5

The question of whether PHEAA could be sued under the
FCA was the subject of three appeals before the Fourth Circuit.
For the sake of simplicity, the Court refers only to the last appeal,
which contains an extensive and thorough discussion of the holdings from the prior two appeals. The Court also address only those
parts of Oberg relied upon by the Appellant.

App. 18
Appellant has never instituted an adversarial proceeding in the bankruptcy court to have her student loans
discharged for undue hardship. Therefore, the Appellant’s student loans cannot have been, and were not,
discharged.
The only purpose of granting the motion to reopen
would have been to allow the Appellant to pursue her
claim that PHEAA’s efforts to collect on the student
loan debt were in contempt of the Bankruptcy Court’s
order discharging that debt. Because the Appellant’s
student loans were never discharged, reopening her
bankruptcy case to determine whether PHEAA should
be held in contempt would have been a fruitless endeavor. As such, it was not an abuse of discretion for
the Bankruptcy Court to deny the Appellant’s motion
to reopen.6

6

Through this appeal, the Appellant also seeks to litigate
several claims and issues that are not germane to the Bankruptcy
Court’s decision denying the motion to reopen. For example, the
Appellant seeks to litigate whether PHEAA engaged in predatory
lending and debt collection practices. Although this accusation
was made in passing in the motion to reopen and for reconsideration, the basis the Appellant provided for reopening her bankruptcy case was that PHEAA’s efforts to collect on the student
loans (predatory or not) violated the order of discharge. Consequently, the Bankruptcy Court’s decision focused on the narrow
issue of whether the student loan debt had been discharged. Because this Court’s jurisdiction on appeal is limited to review of the
“final judgments, orders, and decrees” of a bankruptcy judge; 28
U.S.C. § 158(a); the Court does not take up these collateral issues
as they are not relevant to the Bankruptcy Court’s denial of the
motion to reopen.

App. 19
Conclusion
For the reasons set forth in this decision, the decision of the Bankruptcy Court denying the Appellant’s
motion to reopen is hereby AFFIRMED. The Clerk of
Court is directed to close this matter.
SO ORDERED at Bridgeport, Connecticut, this
11th day of December 2019.
/s/ Kari A. Dooley
KARI A. DOOLEY
UNITED STATES
DISTRICT JUDGE

App. 20
UNITED STATES BANKRUPTCY COURT
DISTRICT OF CONNECTICUT
HARTFORD DIVISION
IN RE:
LORNA Y. CHANNER,
DEBTOR.

:
:
:
:
:

CHAPTER 7
CASE NO. 10-21232
(JJT)
RE: ECF NOS. 97, 107

DECISION ON MOTION TO REOPEN
Before the Court is the Debtor’s Motion to Reopen
Case (“Motion,” ECF No. 97), which she filed in order
to pursue two other motions: (1) a motion for relief
from judgment/order under Rule 9024 (ECF No. 98)
and (2) an amended motion to show cause (ECF No.
103). Ultimately, the Debtor seeks for the Court to hold
the Pennsylvania Higher Education Assistance Agency
a/k/a American Education Services (“PHEAA”) in contempt due to its efforts to collect what the Debtor
claims are discharged debts. The PHEAA filed an objection to the Motion (“Objection,” ECF No. 107). The
Court held a hearing on the Motion and the Objection
on February 7, 2019 (ECF Nos. 110 and 111). For the
reasons below, the Objection is SUSTAINED and the
Motion is DENIED.
“A bankruptcy court may reopen a case ‘to administer assets, to accord relief to the debtor, or for other
cause.’ 11 U.S.C. § 350(b). ‘Decisions by the bankruptcy
court granting or denying a motion to reopen . . . are
not disturbed, absent an abuse of discretion. The

App. 21
reason is that such decisions invoke the exercise of a
bankruptcy court’s equitable powers, which is dependent upon the facts and circumstances of each case.’
State Bank of India v. Chalasani (In re Chalasani), 92
F.3d 1300, 1307 (2d Cir. 1996) (citation omitted). A
bankruptcy court abuses its discretion when it arrives
at a decision that (i) rests ‘on an error of law (such as
application of the wrong legal principle) or a clearly erroneous factual finding,’ or (ii) ‘cannot be located
within the range of permissible decisions,’ even if it is
‘not necessarily the product of a legal error or a clearly
erroneous factual finding.’ Schwartz v. Aquatic Dev.
Group, Inc. (In re Aquatic Dev. Group, Inc.), 352 F.3d
671, 678 (2d Cir. 2003) (internal quotation marks omitted).” Katz v. I.A. Alliance Corp. (In re I. Appel Corp.),
104 F. App’x 199, 200 (2d Cir. 2004) (summary order).
In the Motion, the Debtor claims that because she
listed her student loans from the PHEAA on Schedule
F of her Chapter 7 bankruptcy petition (ECF No. 2) as
unsecured and non-priority, and the PHEAA did not
challenge the loans’ dischargeability, such loans were
discharged. Additionally, the Debtor also claims that
the PHEAA is not a government agency entitled to protection under 11 U.S.C. § 523(a)(8). Notably, the Debtor
has not claimed that the student loan debts impose an
undue hardship on her.
The Debtor’s claims are meritless. First, Schedule
F is the appropriate place to list student loan obligations because they are usually unsecured, non-priority
debts. Merely listing student loan debts on a petition
does not discharge them, a fact noted on the Debtor’s

App. 22
discharge order (ECF No. 64). See Newman v. Educ.
Credit Mgmt. Corp., 2009 WL 1875778, at *3-4
(E.D.N.Y. June 26, 2009). The proper avenue for discharging student loan obligations is to commence an
adversary proceeding under Fed. R. Bankr. P. 7001. The
Debtor has not done so.
Likewise, the Debtor’s assertion that the PHEAA
is not a governmental agency is erroneous. Section
523(a)(8)(A)(i) of the Bankruptcy Code exempts student loans from discharge that, among other things,
are “made, insured, or guaranteed by a governmental
unit, or made under any program funded in whole or
in part by a governmental unit[.]” Under 11 U.S.C.
§ 101(27), “[t]he term “governmental unit” means
United States; State; Commonwealth; District; Territory; municipality; foreign state; department, agency,
or instrumentality of the United States (but not a
United States trustee while serving as a trustee in a
case under this title), a State, a Commonwealth, a District, a Territory, a municipality, or a foreign state; or
other foreign or domestic government.” The PHEAA
was established by Pennsylvania statute, 24 Pa. Cons.
Stat. § 5101, and has long been recognized by Pennsylvania state courts as a state agency. See, e.g., Richmond
v. Pa. Higher Educ. Assistance Agency, 297 A.2d 544,
546 (Pa. Commw. Ct. 1972); see also generally Cherry v.
Pa. Higher Educ. Assistance Agency, 642 A.2d 463 (Pa.
1994) (treating the PHEAA as a state agency). This
Court has no power to alter Pennsylvania’s definition of what constitutes a Pennsylvania state agency.
As such, the PHEAA fits within the definition of

App. 23
“governmental unit” as specified by the Bankruptcy
Code and, therefore, would be entitled to the protections of 11 U.S.C. § 523(a)(8).
Having considered the Debtor’s reasons for wanting to reopen her bankruptcy case, the Court finds that
there is no relief that it can accord her and, otherwise,
no cause to reopen the case. The Objection is SUSTAINED and the Motion is DENIED.
IT IS SO ORDERED at Hartford, Connecticut this
20th day of February 2019.
James J. Tancredi
United States
Bankruptcy Judge
District of Connecticut

App. 24
UNITED STATES BANKRUPTCY COURT
DISTRICT OF CONNECTICUT
HARTFORD DIVISION
IN RE:

)
LORNA Y. CHANNER, )
)
Debtor.
)
)
)
)
)
)

Case No. 10-21232
Chapter 7
Abraham Ribicoff Building
450 Main Street, 7th Floor
Hartford, Connecticut
06103
February 7, 2019
12:31 p.m.

TRANSCRIPT OF MOTION TO REOPEN CASE
FILED BY DEBTOR (97); OBJECTION TO
DEBTOR’S MOTION TO REOPEN AND TO
RECONSIDER DECISION TO DENY DEBTOR’S
MOTION FOR ORDER TO SHOW CAUSE AND
AMENDED MOTION TO SHOW CAUSE FILED
BY ELIZABETH J. AUSTIN ON BEHALF OF
PENNSYLVANIA HIGHER EDUCATION ASSISTANCE AGENCY (107); MOTION FOR RELIEF
FOR JUDGMENT/ORDER UNDER RULE 9024
FILED BY DEBTOR (98); AMENDED MOTION
FOR ORDER TO SHOW CAUSE AS TO WHY
PENNSYLVANIA HIGHER EDUCATION ASSISTANCE AGENCY AND AMERICAN EDUCATION
SERVICES SHOULD NOT BE HELD IN CONTEMPT FILED BY DEBTOR (103); AFFIDAVIT TO
OBJECTION 107 FILED BY ELIZABETH J. AUSTIN
ON BEHALF OF PENNSYLVANIA HIGHER
EDUCATION ASSISTANCE AGENCY (108)

App. 25
BEFORE HONORABLE JAMES J. TANCREDI
UNITED STATES BANKRUPTCY JUDGE
APPEARANCES:
For the Debtor:

LORAN Y. CHANNER, Pro Se

For Pennsylvania
Higher Education
Assistance Agency:

Pullman and Comley
By: ELIZABETH J. AUSTIN,
ESQ.
850 Main Street
P.O. Box 7006
Bridgeport, Connecticut
06601-7006

Proceedings recorded by electronic sound recording,
transcript produced by transcription service.
[2] COURTROOM DEPUTY:
ter is 10-21232, Lorna Channer.

The next mat-

MS. CHANNER: Good afternoon, Your Honor.
Lorna Channer for the record.
THE COURT:

Okay.

MS. AUSTIN: Good afternoon, Your Honor.
Elizabeth Austin, Pullman and Comley –
THE COURT:

All right.

MS. AUSTIN:

– for Pennsylvania Higher Ed.

THE COURT:

All right.

We have various matters on the calendar, including a motion to reopen the underlying case and an objection thereto, ECF 97 and 107;
A motion for relief from judgment, ECF 98;

App. 26
And an amended motion for order to show cause
trying to hold American Education Services in contempt of Court, ECF number 103; and an objection and
affidavit that have been filed in response thereto, ECF
107 and 108.
While I may proceed to follow these motions, we
have a threshold issue about whether or not the case
is even reopened, so I’d like to start there.
Ms. Channer, the burden is on you to explain to me
why I should reopen this case.
MS. CHANNER: Someone trying to collect
debt that has been functional discharge by law.
[3] THE COURT:
discharged by law?

And how has the debt been

MS. CHANNER: Initially when it was discharged filed in the category that was appropriate,
they given time – time and money by the Court to
make their decision, and there was nothing filed at
that time to oppose.
THE COURT: So you – so you claim the way
that you listed this particular student loan and the fact
that they didn’t respond to that caused the student
loan to get discharged?
MS. CHANNER:
Honor, I’m sorry.
THE COURT:

Operation of law, Your

Okay.

MS. CHANNER:

Operation of law.

App. 27
THE COURT: And if they are – assuming for
moment they are a qualified educational institution
that requires you to bring a hardship proceeding, assuming for the moment that they are, do you still contend that the effect of the discharge was to discharged
this debt without a court proceeding where I, or some
other judge, assessed whether or not there was undue
hardship?
MS. CHANNER: It was discharged by operation of law after the deadline has been timely past
and they did not respond.
THE COURT: Well, that’s – that’s not response to my [4] question.
Assuming they are an appropriate educational institution that gave you a student loan, and you didn’t
bring a – what’s called a Brunner proceeding to show
that you had undue hardship, is it your contention that
the discharge discharged this loan?
MS. CHANNER: Your Honor, that’s a –
that’s a question which is complicated to answer, that’s
why I have my response in writing, to at least get a
chance to present it to the record.
THE COURT: All right. Do you want to summarize your response to me?
MS. CHANNER:
giving me the privilege.

Thank you, Your Honor, for

App. 28
Judicial notices and authorities. Petitioner gives
the following judicial notices and authorities. Petitioner is not trained in law and should be held –
THE COURT: I’m going to stop you. If what
you’re doing is reading what you’ve already filed, I’ve
read it.
I want you to summarize your position, if you can.
Can you summarize your position, or you just want me
to rely on your papers?
MS. CHANNER: If you would allow me 15 to
20 minutes, you know, being a woman, and I’m not a
lawyer, and I’m not trained, and I’m not versed in, you
know, laws, I would [5] appreciate that, Your Honor.
THE COURT: I may, but I want to ask you
some threshold questions. Are you contending that Ms.
Austin’s client is not a qualified educational institution
whose loans – student loans are normally not discharged? Are you contending that?
MS. CHANNER:
THE COURT:
question.

I object.

I – you object to what? It’s a

MS. CHANNER:

What you has presented to

me.
THE COURT: Okay. You can object, but you
have to answer my question. Are you contending that
they are not within the protections of the Bankruptcy
Code where normally their loans are not dischargeable

App. 29
unless you have brought a proceeding to show undue
hardship?
MS. CHANNER: I prefer to read what I
have, Your Honor, because I am not clear on the question you’re asking to respond.
THE COURT: Do you know there’s a statute
in Pennsylvania that says that Ms. Austin’s client is a
body corporate and politic constituting a public corporation and governmental instrumentality by the State
of Pennsylvania, do you know there’s a statute that
says that in Pennsylvania?
MS. CHANNER: And, Your Honor, if you
give me the opportunity, the Constitutional Right that
I deserve, I would [6] present to you what I have in
writing.
THE COURT: Okay. I’ve read what you have
in writing. I’m asking you whether or not you are familiar with the fact that there is a state law statute
that says that they are a governmental entity.
MS. CHANNER: They did not respond appropriately and timely, so the operation of law discharged.
THE COURT: Okay. So your answer is nonresponsive. Are you familiar with the fact that there
are decisions out of Pennsylvania courts, including
high courts in Pennsylvania that –
MS. CHANNER:

Your Honor –

App. 30
THE COURT: Excuse me. – that recognize
that they are governmental units of the Commonwealth of Pennsylvania.
MS. CHANNER: Sorry to interrupt while
you were speaking, Your Honor.
Your Honor, if you gave me the opportunity and
the Constitutional Rights I’m allowed, I will present
my case. I am not a lawyer, I am not versed in the law.
I’m a woman, and a woman of color.
Why can’t I give ten, 15 minutes to present to you,
Your Honor, I’m asking timely what I have on paper.
It’s because I’m a woman, I’m a woman – I’m a black
woman –
THE COURT:
ma’am. You’ve had –

It has nothing to do with it,

[7] MS. CHANNER:
THE COURT:

Will you give me –

Excuse me.

MS. CHANNER: – some time so I could get
it in the record, Your Honor? That’s all I’m asking.
THE COURT: Okay. So you don’t feel like
you can answer my question at this point?
MS. CHANNER: I’d love to present what I
have on paper, Your Honor.
THE COURT:
have on paper.

Again, I’ve read what you

App. 31
And the record will note that your responses are
nonresponsive.
What do you –
MS. CHANNER:

Your Honor –

THE COURT: What do you contend is discharged by virtue of your discharge proceeding? How
much in student loans?
MS. CHANNER: Your Honor, I’m asking you
kindly, give me an opportunity to read what I have presented to Your Honor.
THE COURT: Okay. And I said I will consider that, but I want to ask my questions first, okay?
I have a prerogative to do that, and I’m going to ask
my questions. If you want to say “I can’t answer it right
now,” you could say, “I can’t answer it right now.”
How much do you contend –
MS. CHANNER: I cannot answer it right
now, Your [8] Honor. I’d have to research and gave back
to you in a timely manner.
THE COURT:

A timely manner –

MS. CHANNER:

Knowing –

THE COURT: – is going to be today, okay?
And I may give you, in a moment, some time to put
your thoughts together.
But I’m trying to –

App. 32
MS. CHANNER:

I think I –

THE COURT: I’m trying to understand the
nature of papers that you have filed with this Court.
MS. CHANNER:
tional Right.
THE COURT:

I am allowed my Constitu-

Yup.

MS. CHANNER: I am allowed my Constitutional Right, and like I said, I’m being repetitive, I’m a
woman, I’m not versed in the law, I am not a lawyer,
I’m a black woman, it’s what – what’s portraying here.
I have seen representative in this court out here
this morning sit and listen attentively, trying to learn
and understand what’s going on because I respect you
even giving me the time to – just to listen to me. And
they have gotten time, I sit there timing, and I’m counting, and 15, 20 minutes, they have given to present
their case. That’s all I’m asking Your Honor, so I could
present it so it could be on the record for the file. That’s
all I’m asking.
[9] THE COURT:
sider that.

Okay. And I said I will con-

But I want to ask my questions first.
MS. CHANNER:

I just respond to you, Your

Honor.
THE COURT:

Um-hum.

App. 33
MS. CHANNER: Not at this time. I will research it, and get it back to you because it’s need – it
needs careful –
THE COURT:

We’re addressing it today.

All right. Why don’t you wait a moment, I’m going
to hear from –
MS. CHANNER:

I object.

THE COURT: Okay. Why don’t you wait a
moment, I will hear from Ms. Austin.
MS. AUSTIN:

Thank you, Your Honor.

Very simply put, as Your Honor has noted, my client is a statutory – statutory-created instrumentality
of the Commonwealth of Pennsylvania. And it was created, in part, to guarantee federally insured loans, and
that’s what they did in this instance.
The – the loan is nondischargeable pursuant to
523(a)(8). The only way it would be nondischargeable
is if the debtor brought an action –
THE COURT:

A Brunner proceeding.

MS. AUSTIN: A Brunner proceeding, and
met the standards of Brunner to show undue hardship.
No such action was taken in the bankruptcy [10]
proceeding, nor has the debtor contended that they
could meet – that she could meet this very, very high
standard set by the Brunner of undue hardship.

App. 34
So there could – because the debt was not discharged, any actions that were taken to collect on the
debt – and no actions were taken during the pendency
of the bankruptcy proceeding – collection actions only
ensued once the case was closed.
So as a result, those actions cannot constitute contempt of court.
And if the only reason here to have this case be
reopened is to pursue a proceeding of contempt against
my client, then there is no basis to reopen the case,
nor can the debtor meet the high standard necessary
to show that a contempt order should enter. Because,
once again, the argument is it’s fatally flawed, there
has been no violation of the discharge order because
the debt has not been discharged.
And I will also note, Your Honor, as I noted in my
pleadings, the debtor has not exhausted administrative – her administrative proceedings – her right to administrative proceedings.
When the notice of garnishment was sent to the
debtor, she had an opportunity to request a hearing if
she felt there was a basis as to why her wages should
not be garnished, or why the debt should not be collected. She did not ask for a [11] hearing.
That right to a hearing continues to exist even after the garnishment proceedings have commenced. So
for that reason, this matter should be dismissed because I think there’s a jurisdictional issue because she
has failed to exhaust her administrative remedies.

App. 35
With that said, I understand that if she does request a hearing, I don’t know that she’s going to get
any further with the issue of her argument that the
debt is dischargeable because it simply is not.
THE COURT: All right. Putting what I understand her arguments to be that I have discerned
from her papers, and your arguments together, I hear
three issues:
The first issue is whether or not you’re the appropriate governmental entity that’s entitled to the protections under the Brunner test.
And as I noted, and you have underscored, there is
a State statute that says you’re a governmental entity,
and there are Pennsylvania high court decisions that
say you are such a governmental entity.
The debtor also appears to attribute some significance to the fact that she listed your student loans on
her bankruptcy petition, and you didn’t do anything
about that.
My understanding of the Brunner test and the [12]
jurisprudence in this Circuit is the onus is on her to do
something about her student loans. There’s not an
onus on you to bring any proceeding to determine that
they are not discharged.
MS. AUSTIN:

That – yeah –

THE COURT:

Do you agree with that?

MS. AUSTIN: I absolutely agree with that
being the case, the case law is very clear on that issue.

App. 36
A student debt is often listen listed on schedules as being unsecured, and it is, indeed, an unsecured debt, but
it is a nondischargeable debt, and that is the very –
THE COURT: Otherwise everybody would
list their student debt on their schedules and hope that
their student loan lender would do nothing.
MS. AUSTIN: And that is exactly why the
legislature wrote it – made undue – they used the word
“undue” to make it such a high standard for these
debts to be discharged.
THE COURT: Okay. And then lastly, you’ve
made an argument about exhaustion and how it reflects on the jurisdiction or possibly the ripeness of any
dispute.
Do I have all the issues encompassed, Ms. Austin?
MS. AUSTIN:

Yes, Your Honor, I believe you

THE COURT:
I’ve tried –

Okay. All right, Ms. Channer,

do.

MS. CHANNER:

Yes, Your Honor.

[13] THE COURT: I’ve tried by both my
questions and my summaries, and the questions I’ve
asked both of you and Ms. Austin to lay out the considerations here. The considerations are legal ones. You
have a formidable obstacle in terms of convincing me
because I have in my hand a Pennsylvania statute, and
at least three or four decisions out of Pennsylvania

App. 37
courts that say her client is an appropriate governmental entity.
So you have a significant obstacle convincing me
otherwise. I am bound as a Federal Judge to recognize
Pennsylvania law, no matter what I think.
Pennsylvania law tells me that they are a governmental institution.
With re –
MS. CHANNER:

Your –

THE COURT: With regard to the second issue that both Attorney Austin and I have delineated in
connection with the bankruptcy proceeding, the mere
fact that you list student loans on your petition doesn’t
give you a discharge if they do nothing.
If you want a discharge from student loans, under
the law in the United States and in the Second Circuit
where we sit, you have to bring a proceeding to either
challenge whether or not they’re an appropriate governmental institution, or to demonstrate undue hardship. And it’s clear from a review of the record that you
didn’t do that.
[14] And then lastly, Ms. Austin has made an argument that you may have some burdens in terms of
trying to exhaust other remedies to get relief from your
student loans before you come here.
So those are the three things that I’m considering.
And consistent –

App. 38
MS. CHANNER:
THE COURT:

Objection, Your Honor.

Okay, and I note your objec-

tion.
But those are the things that I’m considering, and
those are –
MS. CHANNER:
THE COURT:

Objection, Your Honor.
And those are the issues

that –
MS. CHANNER:
THE COURT:
your papers –

Objection.
Those are the issues that

MS. CHANNER:

Objection, Your Honor.

THE COURT: Okay, I heard you. You don’t
need to repeat it again.
MS. CHANNER:
Constitutional Rights –
THE COURT:

You’re going to get it.

MS. CHANNER:
something in the record?
THE COURT:

Could you allow me my

– Your Honor, to have

You’re going to get it in a sec-

ond.
MS. CHANNER: Thank you very much,
Your Honor. I appreciate it.
[15] THE COURT:

When I finish.

App. 39
MS. CHANNER:

Yes, Your Honor.

THE COURT: Those are the three issues
that your papers and Ms. Austin’s papers present. And
I’m going to give –
MS. CHANNER:

Object.

THE COURT: And I’m going to give you a
chance to read your documents again –
MS. CHANNER:

Appreciate it, Your Honor.

THE COURT: And – and to come back here
today and – and to present –
MS. CHANNER:
THE COURT:

Objection.

– and to present any other ar-

gument.
MS. CHANNER:
THE COURT:

Objection, Your Honor.

Okay.

MS. CHANNER:

May I proceed –

THE COURT: You don’t need to continue to
object. I know that you object to what I have advanced.
But my job –
MS. CHANNER:

Okay, Your Honor.

THE COURT: My job, consistent with the
rules, is to address the motions that have been filed in
a timely and efficient fashion you have had –

App. 40
MS. CHANNER:
am not trained in the law.
THE COURT:
trained in the [16] law.

Objection, Your Honor. I
I understand you’re not

MS. CHANNER: And I have – and I should
not be held with less than stringent standards that is
formal pleading. And I have case law that proves that,
C. Haines versus Kerner. And today I would like to present my challenge. My presentation today will speak to
the priority and the statutes of the alleged debt, and
will show that the order to garnish was obtained under
false pretense and fraud.
I am challenging the counsel of PHEAA, Pennsylvania Higher Education Assistance Program and
American Education Services, Windham Professionals
has not announced who has – has counsel, please respond for the record.
Also there is a trust involved –
THE COURT: Hold on, Ms. Channer. You’re
going to get your request. Do you want time to think?
You’re going to come back here at 1:45, I’m going to give
you approximately 15 minutes to make your arguments on the motion to reopen.
You have to reopen your bankruptcy case in order
to get the other relief. And if you do not convince me as
a threshold matter that there’s good cause to do so, we
will never get to the other relief.

App. 41
MS. CHANNER: Objection, Your Honor. It
was – that’s why I was given a date for today. It was –
I was notified by the Court –
THE COURT:

You have your date –

[17] MS. CHANNER:

– and I have a hearing

today.
THE COURT:

You have your date today.

MS. CHANNER:

That means it was reo-

pened.
THE COURT: No, it doesn’t mean it’s reopened. I’m sorry, you misunderstand a lot.
The motion to reopen is on the calendar, and you’re
here to argue it. So you’re directed to come back at 1:45
prepared to argue, okay?
I’m going to take a recess. I’ll be back at 1:45.
(Recess 12:52 p.m./Reconvene 1:52 p.m.)
THE COURT:

The Channer matter.

COURTROOM DEPUTY: All right. We’re
back on the record for 10-21232, Lorna Channer.
THE COURT: All right. Ms. Channer, you
asked the Court for time to put your thoughts together.
I have endeavored to articulate for you the issues that
the Court has to consider given the law and the papers
that have been filed.
This is your opportunity to address the Court.

App. 42
MS. CHANNER:

Thank you, Your Honor.

Today’s challenge is my presentation today will
speak to the priority and status of the alleged debt, and
will show that the order to garnish was obtained under
false pretense and fraud.
I am challenging the counsel of PHEAA and AES,
Windham Professionals has not announced who it has
as a [18] counsel. Please respond for the Court record.
Also, there is a trust involved named USELT Trust
IV. These four parties each have separate interest in
the outcome of these proceedings. They each may conflict – may have conflicts of interest; I’m sorry. The forensic audit of the loan will reveal this through an
evidentiary hearing allowing discovery, this is a formal
request.
Also all parties involved should know who this law
firm is representing. My student loan is table funded,
which is against public policy, and any parties involved
in such loans according to Regulation Z have unclean
hands, violating the TILA.
According to Regulation Z, these parties with unclean hands should not be afforded equitable relief
found in judicial presumption, but must be required to
prove all of their claims.
I am requesting the original note so that I can
have a forensic evaluation conducted. This request
should be honored by the Judge and considered discovery for my case.

App. 43
I received a copy of the note, but there was no proof
of authenticity. I challenge the parties’ ability to show
the alleged debt as the priority and status of a bone
fide educational benefit described in Section 11 U.S.C.
Section 523(a)(8).
Without this proper status, debt cannot meet requirements or be excepted as a discharge of a loan under the [19] statute.
This debt is nonpriority and unsecured and that
would make it dischargeable under Bankruptcy Code.
Nonpriority, no evidence that the Department of Education and Finance are guarantee debt, so I dealt with
alleged debt by filing in my Chapter 7 petition.
The debt was discharged by operation of law, and
the party has not mentioned this because they defaulted final challenge in the alleged debt according to
the guidelines and timeliness in my Chapter 7 petition.
The parties have not alleged that they did not receive notice of my petition, including guidelines, timeliness, and the rebuttal process for the claim. Debt was
discharged by operation of law according to bankruptcy law if priority and status of alleged debt was
unfounded and obtained under false pretense and
fraudulent.
This information, as well as so much more, will be
exposed if granted evidentiary hearing allowing discovery. This is a formal request.
Parties have no admissible evidence that shows
ownership interest in the alleged debt. I contend that

App. 44
the alleged debt is not a student loan that is expected
(sic) from discharge under Section 523(a)(8) of the
Code because it is not considered an educational benefit. A scholarship is a benefit, and Congress was referencing scholarship when it wrote the [20] phrase in
1990.
Respondent knew, or should have known, that
debt that they sought to collect was not an educational
benefit as prescribed by the Code. As such, it was not
exempt from discharge in bankruptcy proceedings.
An evidentiary hearing will reveal the truth of this
alleged debt. This is a formal request.
Most Bankruptcy Courts have fallen victim to the
educational benefits siren and have refused to discharge any debt that can be constituted as providing
broadly defined educational advantages. This interpretation is at odds with the statutory language under legislative history, I’m sorry, of the second – of the Section
523(a)(8), which protects three distinct classes of debt:
First, Subsection (a)(i) only protects federally insured or non-profit student loans;
Second, Subsection (a)(ii) only protects debts resulting from noncompliance in contractual service
scholarships and grants;
Third, Subsection (b) only protects private student
loans that meet narrow IRS Code qualification. A sizeable portion of private student loan debt falls outside
all three of these categories, and must be treated as

App. 45
non-qualified private student loans that have no protection from discharge.
Courts have misapplied Section 523(a)(8), and
used it [21] to refuse discharge of any educational advantages, that is educational benefit, recent courts
have begun applying the laws as written case law,
Campbell versus Citibank, 547.
The statute does not contend that the term loan
should replace the term benefit and it is this misinterpretation that the courts have been improperly
assessing student loans to mean student benefits. Because of this exception for the nondischargeable rule
that the alleged debt was placed in nonpriority unsecured debt, Schedule F of my bankruptcy petition, my
contempt claims include Bankruptcy Code violation,
Fair Debt Collection Practices Acts violation, Truth In
Lending violation, Debt Collection Practices Act violations, fraud, fraud, fraud, failure to disclose true lender,
the collection actions conducted against me were to
harm me, my reputation, my credit, my career, and
those who know me, as well as stranger, know – now in
my life.
In addition to my cease and desist demand, the
parties also had knowledge of this bankruptcy discharge orders, this made the contempt clear and convince the pretender lender, PHEAA/AES to refund a
couple of thousand – a couple of thousand dollars.
A schedule evidentiary hearing would reveal the
many violations within this transaction, and I am formally requesting this today.

App. 46
Therefore, I move the Court for a continuance until [22] such hearing can be scheduled.
Humbly submitted, Lorna Channer.
THE COURT:
MS.

Thank you.

CHANNER:

You’re

welcome,

Your

Honor.
THE COURT:

Ms. Austin, anything further?

MS. AUSTIN: No, Your Honor, other than, of
course, we would oppose a continuance. The – that the
cost and expenses of having to defend against this are
burdensome to my client, and it’s unfair that they
would have to continue to litigate over this matter
when it is as clear cut as it is that this is a nondischargeable debt, and there has been no violation of the
discharge order.
THE COURT: All right. I’m going to take
these matters under advisement.
I may, if I open the case, have further proceedings
on a motion for relief from judgment and the amended
motion for order to show cause.
But I’m going to focus principally on ECF 97 about
whether or not these cases get reopened.
All right, thank you, both.
MS. AUSTIN:

Thank you, Your Honor.

MS. CHANNER: You’re welcome, Your Honor.

App. 47
(Whereupon, at 2:02 p.m., the hearing was adjourned.)

[Certificate Of Transcriber Omitted]

App. 48
UNITED STATES BANKRUPTCY COURT
DISTRICT OF CONNECTICUT
) CHAPTER 7
) No. 10-21232
Lorna Y. Channer,
)
Debtor.
)
)
Lorna Y. Channer
)
Movant
)
v.
)
PENNSYLVANIA HIGHER )
EDUCATION ASSISTANCE )
)
AGENCY,
)
And,
)
)
AMERICAN EDUCATION
)
SERVICES,
)
Respondents
) Re: ECF No. 84

In re:

MOTION FOR ORDER TO SHOW CAUSE
(Filed Sep. 17, 2018)
Lorna Channer (hereinafter, “Movant”) moves this
Honorable Court to order Pennsylvania Higher Education Assistance Agency (hereinafter, “PHEAA”) and
American Education Services (hereinafter, “AES”),
along with each of the parties and entities that assisted and abetted them, to show cause as to why they
should not be held in contempt of this Court’s Discharge Decree, and of their violations of the injunctions

App. 49
of the Bankruptcy Code (“the Code”). In support of her
motion, Movant says the following:
Judicial Notices and Authorities
Movant gives the following Judicial Notices and
Authorities:
-

Movant is not trained in the law and should
be held to less stringent standards than formal pleadings drafted by lawyers. See Haines
v. Kerner, 404 U.S. 519 (1972), which states
“Allegations such as those asserted by petitioner, however inartfully pleaded, are sufficient” . . . “which we hold to less stringent
standards than formal pleadings drafted by
lawyers.”; and,

-

Federal statutes are the supreme law of the
land and will be judicially noticed. Federal
regulations and executive orders published in
the Federal Register must be judicially noticed. Please see, and as reported under 44
U.S.C. § 1507, as well as 27 CFR 72.11; and,

-

Reservation of Rights. Petitioner reserves all
her rights under UCC 1-308, and under the
constitutions of the state of Connecticut and
the United States of America; and,

-

Movant further requests the Court take judicial notice as purported under CGS Sec. 52164, which provides for judicial decisions of
other states and countries.

App. 50
For Orders To Show Cause
1.

PHEAA and AES have made efforts to collect
a discharged debt from Movant.

2.

After receiving notice from Movant that they
were in contempt of court with their actions to
collect a discharged debt, said parties persisted in their collection actions by garnishing
employment funds from Petitioner’s employer.

3.

Neither PHEAA nor AES is a government
agency, and neither is entitled to utilize the
bankruptcy laws pertaining to education
loans owed to government agencies while acting as collection agents for investors.

4.

PHEAA purports to be a collection agent for
AES, and AES purports to be a “guarantor” of
a student loan account for Movant.

5.

Both PHEAA and AES have improperly held
themselves out to be government entities that
are entitled to get around the discharge injunctions of the Bankruptcy Code.

6.

PHEAA has a business address at 1200 North
Seventh Street, Harrisburg, Pennsylvania
17105.

7.

AES has a business address at 1200 North
Seventh Street, Harrisburg, Pennsylvania
17102.

8.

Claims of PHEAA and AES were included in
Movant’s bankruptcy petition as being “unsecured” and “non-priority”. Neither party
timely disputed the Petition’s claim within

App. 51
this court’s ordered deadline to challenge dischargeability.
9.

The purported debts of PHEAA and AES were
discharged in § 727 of the Bankruptcy Code,
and no timely appeal was filed by the parties
after said discharge was ordered..

10. PHEAA and AES are currently in contempt of
the bankruptcy court’s orders, which orders
discharged their purported debts.
11. Neither PHEAA or AES has claimed that it
has owned the subject debts at any point in
time. The purported debts had no security interest with Movant, and said claims were
therefore listed as unsecured in Movant’s
bankruptcy petition. When this Court ordered
the discharge of Movant’s debts, the Respondents’ purported debts were discharged by said
order. Therefore, the claims of said parties did
not survive the bankruptcy process.
12. PHEAA and AES have misrepresented their
status as debt collectors, and their status as
debt owners. Their purported transactions
were table-funded, and were predatory loans,
per se; according to Regulation Z.
13. PHEAA and AES began their collection actions against Movant after Movant received
her discharge orders from the Bankruptcy
Court. Said collection actions were therefore
in violation of the discharge injunctions of the
Code.
14. Movant sent PHEAA and AES a cease and
desist notice which explained their claims

App. 52
were considered to be discharged, and which
declared that they had not timely filed an
adversary proceeding to challenge the dischargeability of their purported debt within
the court-ordered deadline. Yet the parties
persisted in their collection efforts.
15. By their participation in said predatory loans,
the parties acted in violation of public policy
and are therefore not eligible for any form of
equitable relief from this Court. This is due to
the parties’ unclean hands.
16. Movant included PHEAA’s and AES’s purported debts in Schedule “F” of her bankruptcy petition. ECF 2. This provided notice to
the parties that their purported debt was being declared as “unsecured” and “non-priority”.
17. The Bankruptcy Trustee issued a notice to all
listed creditors that there would be a § 341
Creditors’ Meeting. Said notice also served as
notification to each creditor that there was a
court-ordered deadline to file any objection
they may have to the discharge of their respective debts. The deadline for objecting was
October 31, 2010.
18. The court-ordered deadline was ignored by
PHEAA and AES as they did not timely contest the dischargeability of their purported
debt within that deadline. The parties were
thereafter barred from any effort to collect
their purported debt. The discharge had become effective by operation of law.

App. 53
19. The Bankruptcy Court issued its § 727 Discharge Of Debtor in accordance with Title 11
of the United States Bankruptcy Code, on
November 3, 2017. (See ECF 64.)
20. Notice of the Order Discharging Debtor’s personal liability to pay the purported debt was
mailed to all listed creditors by the Clerk of
the Bankruptcy Court on November 3, 2010.
21. PHEAA and AES did not file timely appeals
from the Bankruptcy Court’s discharge order,
so said order became final.
22. The Bankruptcy Case was thereafter closed.
23. PHEAA and AES knew, or should have
known, that their collection actions which followed the bankruptcy discharge were barred
by the Bankruptcy Court’s decree and by the
discharge injunctions of the Code. Yet the
parties ignored the decree and the Code when
they secured a garnishment order against
Movant’s payroll earnings and proceeded to
garnish her pay. Such action was in contempt
of the Bankruptcy Code.
24. After Movant filed her motion to open and for
an order to show cause, the parties arbitrarily
returned some of the garnished wages it had
taken from her. After returning approximately $2,455.99 of the garnished wages to
Movant, PHEAA sent Movant a letter that
announced its notice of intent to resume its
collection activity. (Correspondence to Movant
is Exhibit A.)

App. 54
25. Movant considers said notice of intent to be a
continuing violation of the Code, and a continuing contempt of this Court’s orders.
26. The alleged loan was from a purported private
lender of a for-profit school which makes it
an unqualified, non-priority loan which is dischargeable in Chapter 7 bankruptcy proceedings. Further, such loan does not comport with
the requirements of the “educational benefit”
section of the Code.
27. Movant contends PHEAA and AES should
also be sanctioned for making false representations to the Superior Court where they secured their garnishment order.
In view of the foregoing, Petitioner prays this
Honorable Court will dismiss any claims of PHEAA
and AES with prejudice, and award costs, punitive
damages and sanctions against the parties and their
counsel. Petitioner also requests such other and further relief as is just and fair.
Respectfully submitted,
September 15, 2018
Petitioner,
By: /s/ Lorna Channer
Lorna Channer, pro se
P.O. Box 205
Windsor, CT 06095
[Certification Omitted]

